AKUSA 02534 14.5 R 08/20

Cardholder Agreement
(Including Federal Truth in Lending Disclosures)

­­Dear Member:
This Agreement is your contract. It contains disclosures required by the Federal
Truth in Lending Act, Military Lending Act, and other applicable law. Please read
all of it and keep it for your records because, when you have accepted, signed or
used your Card, or the Account, you have agreed to the terms of the Agreement.
Alaska USA Federal Credit Union
Anchorage, Alaska
In this Agreement the words you, your and yours mean the Cardholder(s). The words we, us and
our mean Alaska USA Federal Credit Union (Alaska USA) and any agent through which the Account
is established.
You do not have to sign the Agreement, but once you have accepted, signed or used the Card,
or the Account, the Agreement will be in force.

The following definitions apply to the terminology used in this Agreement and on your
monthly statement:
Account. The Visa® and/or any open-end credit account(s) approved by us for your use which is
subject to the Terms and Conditions o­­­­f this Agreement.
Annual Percentage Rate. The cost of your credit as a yearly rate.
Billing Cycle. The time interval between regular monthly billing statement dates. This interval is
considered to be equal intervals of time unless a billing date varies more than four (4) days from
the regular date.
Cash Advance. Credit extended by us to you in the form of a loan made when you present the
Card to us or to any financial institution honoring the Card, or use of any other credit instrument,
device, overdraft coverage plan or automated teller machine we make available to you.
Card. Any Visa card(s) and/or other credit card(s) subject to this agreement issued to you by us,
or other single credit device being used from time to time upon presentation to obtain money,
property, labor, or services on credit. “Card” is implied when you obtain credit by using your
account number without using the Card.
Cardholder. The natural person to whom a credit card is issued upon the request or application of
that natural person for any purpose, or a natural person who has agreed with us to pay obligations
arising from the issuance of such a credit card to another person.
Closing Date. The date of the last day of a Billing Cycle.
Credit Limit. The maximum amount of credit available to you as set for the Account by us from
time to time.
Finance Charge. The cost of credit extended to you on the Account resulting from applying
the Periodic Rate to the Average Daily Balance and the Transaction Fee for Cash Advance
transactions.
New Balance. The account balance outstanding on the Closing Date.
Other Charges. Charges to your Account other than Cash Advances or Purchases. Other Charges
are listed in part D of the Agreement.
Periodic Rate. The percentage of Finance Charge imposed against a balance for a period. In this
Agreement, a “Monthly” Periodic Rate is used.
Previous Balance. The balance of the Account at the beginning of the Billing Cycle. (It is the
same amount that was shown as “New Balance” on the Closing Date on the statement for the
preceding Billing Cycle.)
Purchases. Extensions of credit by us to you for purchases through sellers or lessors of goods,
labor, insurance and/or services that honor your Card and for other charges or debits.
User. The person(s) authorized by a Cardholder to obtain credit under an Account whether named
in an application as a User, or otherwise.

TERMS AND CONDITIONS
Purchases, Cash Advances, and Balance Transfers. You can use the Card for Purchases, Cash
Advances, and Balance Transfers. The maximum cash advance is the lesser of your available
credit limit or $5,000 per day. There is no minimum amount. The maximum advance at an
automated teller machine is $500 per day. There is no minimum amount. The minimum amount
for a balance transfer is $500. You will owe us for these amounts plus Finance Charge and Other
Charges, if any, all payable in U.S. Dollars.
Monthly Statement. If you have an outstanding debit or credit New Balance in excess of $1.00 or
if there is any Finance Charge imposed during a Billing Cycle, we will send you a statement. You
must pay us (or if we elect, to any party to whom we transfer and assign your Account) according
to the Terms and Conditions of the Account.

Other Terms and Conditions (including Federal Truth in Lending Disclosure)
(A) The conditions under which a Finance Charge will be imposed:
(1) Purchases. A Finance Charge that will accrue from the date posted will be imposed on
Purchase transactions posted during a Billing Cycle when the Previous Balance is not
paid in full within the first 25 days of the Billing Cycle. A Finance Charge that will accrue
from the first day of the next billing cycle will also be imposed on Purchases included
in the New Balance when the entire New Balance is not paid in full within 25 days after
the Closing Date. No Finance Charge will be imposed on Purchases included in the New
Balance when the entire New Balance is paid in full within 25 days after the Closing Date.
(2) Cash Advances/Balance Transfers. A Finance Charge in the form of a Transaction Fee
will be imposed on each transaction for Cash Advances posted to the Account during a
Billing Cycle. A Finance Charge computed on a Periodic Rate basis will also be imposed
on Cash Advances/Balance Transfers from the date posted to the Account through the
date paid. The Finance Charge accrued on Cash Advances/Balance Transfers between
the Closing Date of the Billing Cycle and the date your Account is credited will appear
on your next statement. There is no time period within which to pay to avoid the Finance
Charge on Cash Advances/Balance Transfers.
(3) If your Account is subject to a Finance Charge other than a Cash Advance Transaction
Fee, then the more that you pay and the sooner you pay, the less your Finance Charge
will be.
(B) The method of determining the balance upon which a Finance Charge will be imposed:
(1) We figure a portion of the Finance Charge on your Account by applying a Transaction
Fee to the amount of each Cash Advance transaction posted during the Billing Cycle.
(2) We figure a portion of the Finance Charge on your account by applying a Periodic Rate
to the “Average Daily Balance” of Cash Advances/Balance Transfers on your account
(including current transactions for Cash Advances/Balance Transfers). To get the
“Average Daily Balance” of Cash Advances/Balance Transfers, we take the beginning
balance of Cash Advances/Balance Transfers on your Account each day, add any new
Cash Advances/Balance Transfers, and subtract any payments or credits and unpaid
Finance Charges. This gives us the daily balance for Cash Advances/Balance Transfers.
Then we add up all these daily balances for the Billing Cycle and divide by the number of
days in the Billing Cycle. This gives us the “Average Daily Balance” of Cash Advances/
Balance Transfers. There is no period beyond the allowable 25 days in which credit
extended may be paid without incurring a finance charge.
(3) We figure a portion of the Finance Charge on your Account by applying a Periodic Rate to
the “Average Daily Balance” of Purchases on your Account (including current transactions
for Purchases). To get the “Average Daily Balance” of Purchases, we take the beginning
balance of Purchases on your Account each day, add any new Purchases and Other
Charges (except Late Payment Charges), and subtract any payments or credits, unpaid
Finance Charges and Late Payment Charges. This gives us the daily balance for
Purchases. Then we add up all these daily balances for the Billing Cycle and divide by
the number of days in the Billing Cycle. This gives us the “Average Daily Balance” of
Purchases. If the entire Previous Balance is paid in full within the first 25 days of the
Billing Cycle, the Average Daily Balance of Purchases will be considered to be $0.

(C) The method of determining the amount of the FINANCE CHARGE: The FINANCE CHARGE
imposed during a Billing Cycle will be the sum of the Transaction Fee and Periodic Rate
components of the FINANCE CHARGE determined by:
(1) Applying a Transaction Fee amounting to 2% of the amount of each current transaction
($10.00 maximum per transaction) for Cash Advances posted during the Billing Cycle.
(2) Applying to the Average Daily Balance for the Billing Cycle a Monthly Periodic Rate of
1.2083% (corresponding ANNUAL PERCENTAGE RATE is 14.5%).
(D) The conditions under which any other charges may be imposed:
(1) Annual Card Membership Fee. A $50.00 Annual Card Membership Fee will be charged
to your Account. If at the time of the initial fee your Card will expire in less than a
year, the Annual Fee will be prorated, based upon the number of months left before
the Card expires. Only one fee will be charged, even if more than one Card is issued
on the Account. This fee may be waived if you have an active checking account from
Alaska USA.
(2) Late Payment Fee. A Minimum Payment not paid within 13 days after Payment Due
Date will be subject to a single charge of 5% of the Minimum Payment due ($1.00
minimum, $35.00 maximum).
(3) Returned Check Charge. A $20.00 charge will be assessed to your Credit Card Account
when any check submitted by you for payment on the Account is returned to us unpaid.
(4) Research and Copying Fee. A $3.00 fee will be charged for each statement copy you
request. A $12.00 per copy fee may be charged for copies of each document, in
connection with the Account, that you request. This fee is not imposed if the copy is for
the resolution of a billing error.
(E) The conditions under which we may retain or acquire any security interest in any property to
secure the payment of any credit extended on the Account:
(1) If we now or hereafter hold any title, pledge or security interest in any of your property,
it may be that the terms of the instrument creating such title, pledge or security interest
will also secure your obligation on the Account.
(2) If you have pledged or shall hereafter pledge your personal residence as collateral
security for any indebtedness of which we are or become the owner and holder, it is
hereby understood that we hereby waive any claim we might otherwise acquire against
said personal residence as collateral security for any obligation to us arising from your
use of the Card.
(F) The minimum periodic payment required: If you elect not to pay your balance in full, a payment
according to the following schedule must be made by you within 25 days after the Closing
Date of the Billing Cycle as shown on your statement.
Minimum Payment Schedule:
If your New Balance is:
Your Minimum Payment will be:
Less than $15
New Balance in full
$15 to $500
$15
More than $500
3% of New Balance (rounded up to next whole dollar)
In addition to the above, the Minimum Payment will include the amount of all Past Due
payments and the amount by which the New Balance exceeds the Credit Limit for the Account.
Payments received shall be first applied to outstanding Finance Charges and Miscellaneous
Charges, then to Cash Advances and Purchases previously billed, and then to Cash Advances
and Purchases currently billed.
(G) Your Billing Rights: Keep This Notice for Future Use. This notice contains important
information about your rights and our responsibilities under the Fair Credit Billing Act.
Notify Us in Case of Errors or Questions About Your Bill. If you think your bill is wrong, or
if you need information about a transaction on your bill, write us on a separate sheet at
the address shown on your bill. Write to us as soon as possible. We must hear from you no
later than 60 days after we sent you the first bill on which the error or problem appeared.
You can telephone us, but doing so will not preserve your rights. In your letter, give us the
following information:
n Your name and account number.
n The dollar amount of the suspected error.
n Describe the error and explain, if you can, why you believe there is an error. If you need
more information, describe the item you are not sure about.
If you have authorized us to pay your credit card bill automatically from your savings or
checking account, you can stop the payment on any amount you think is wrong. To stop
the payment, your letter must reach us three (3) business days before the automatic
payment is scheduled to occur.
Your Rights and Our Responsibilities After We Receive Your Written Notice. We must acknowledge
your letter within 30 days, unless we have corrected the error by then. Within 90 days, we
must either correct the error or explain why we believe the bill is correct.
After we receive your letter, we cannot try to collect any amount you question, or report you
as delinquent. We can continue to bill you for the amount you question, including finance
charges, and we can apply any unpaid amount against your credit limit. You do not have to
pay any questioned amount while we are investigating, but you are still obligated to pay the
parts of your bill that are not in question.
If we find that we made a mistake on your bill, you will not have to pay any finance charges
related to any questioned amount. If we didn’t make a mistake, you may have to pay finance
charges, and you will have to make up any missed payments on the questioned amount. In
either case, we will send you a statement of the amount you owe and the date that it is due.
If you fail to pay the amount that we think you owe, we may report you as delinquent. However,
if our explanation does not satisfy you and you write to us within ten (10) days telling us that
you still refuse to pay, we must tell anyone we report you to that you have a question about
your bill. And, we must tell you the name of anyone we reported you to. We must tell anyone
we report you to that the matter has been settled between us when it is final.
If we don’t follow these rules, we can’t collect the first $50 of the questioned amount, even
if your bill was correct.
Special Rule for Credit Card Purchases. If you have a problem with the quality of property or
services that you purchased with a credit card, and you have tried in good faith to correct the
problem with the merchant, you may have the right not to pay the remaining amount due on
the property or services. There are two limitations on this right:
(a) You must have made the purchase in your home state, or if not within your home state,
within 100 miles of your current mailing address; and
(b) The purchase price must have been more than $50.
These limitations do not apply if we own or operate the merchant, or if we mailed you the
advertisement for the property or services.

Military Annual Percentage Rate (MAPR): Federal law provides important protections to
members of the Armed Forces and their dependents relating to extensions of consumer
credit. In general, the cost of consumer credit to a member of the Armed Forces and his or her
dependent may not exceed an annual percentage rate of 36 percent. This rate must include,
as applicable to the credit transaction or account: The costs associated with credit insurance
premiums; fees for ancillary products sold in connection with the credit transaction; any
application fee charged (other than certain application fees for specified credit transactions
or accounts); and any participation fee charged (other than certain participation fees for a
credit card account).
Oral Disclosure: You may call 1-800-941-8936 to hear mandatory loan disclosures required
by the Military Lending Act.
Covered Borrower. A Covered Borrower is a member of the Armed Forces or a dependent of
a member of the Armed Forces who was determined to be a eligible for Covered Borrower
status as that term is defined in 32 CFR Part 232 (the Department of Defense’s regulation
implementing the Military Lending Act).
Change in Status. If you are determined to be a Covered Borrower at the time this Agreement
is entered into, and at a later date are no longer a Covered Borrower, you agree that the
provisions of 32 CFR Part 232 will no longer apply to this Agreement.
Savings Clause. This Agreement may contain terms that are prohibited when applied to
Covered Borrowers. For this reason, you and we agree that application of any term proscribed
by 32 CFR 232.8 shall be limited to only non-covered borrowers in a manner consistent with
other applicable law.
continued on the reverse side

AKUSA 02534 14.5 R 08/20

ADDITIONAL PROVISIONS
You also agree to all of the following:
Membership. If your membership with Alaska USA terminates for any reason, you agree to
immediately surrender all Visa cards issued on your Account(s). You also agree to pay off all
credit extended on your Account(s) according to the terms of this agreement.
Ownership of Cards. Any Card or other credit instrument or device which we supply to you is our
property and must be returned to us or our agent immediately upon demand. If we ask, you will
destroy the Card by cutting it in half, and will surrender it to us or our agent, mail it to us, or drop
it off at any of our offices that we direct.
Individual Liability. You, as an Account Holder, will be liable for all credit obtained under the
Account(s), whether obtained by you or by a User of the Account. If there is more than one Account
Holder, then each will be liable, jointly and severally, for all credit obtained under the Account(s).
Credit Limit. You will not use the Card to obtain credit in excess of the amount of the Credit Limit
available to you on an Account.
Loss or Theft of Card. You will notify us immediately of the loss or theft, or the use without
your permission, of any Card or other credit instrument or device which we supply you by calling
563-4567 in Anchorage, (800) 525-9094 outside Anchorage. Card Services is available to assist
you with lost or stolen cards 24/7. You further agree to confirm this notice in writing within two
(2) business days at our address below:
Our Address. You should address letters and other notices to us at:
Alaska USA Federal Credit Union, Card Services,
P.O. Box 196602, Anchorage, AK 99519-6602
Liability of Cardholder for Unauthorized Use. Under Visa’s Zero Liability policy, you are not liable
for fraudulent purchase transactions processed over the Visa network.
Transactions. You will retain for statement verification your copy of each slip (ticket/draft)
resulting from each Purchase, Cash Advance and other transaction on your Account. We will
provide you with photographic or other documentary evidence of each transaction upon your
reasonable request or upon proper written notice of a billing error.
Termination. Either you or we may terminate or suspend your credit privileges under this
Agreement at any time. The provisions of this Agreement shall otherwise remain in full force and
effect until you pay all sums due us.
Transfer of Account. You cannot transfer an Account to any other person.
Honoring of Card. We will not be responsible for the failure or refusal of anyone to honor the Card
or any other credit instrument or device we supply to you.
Refunds. If a seller agrees to give you a refund or adjustment, you will accept a credit slip for your
Account in lieu of a cash refund.
Change of Address. You will advise us promptly if you change your mailing address. All written
notices and statements by us to you will be sent to your address as it appears on our records.
Credit Reports. You authorize us to make or have made any credit, employment and investigative
inquiries as we deem appropriate for the extension or combination of credit or collection of
amounts owing on the Account. We can furnish information concerning your Account or credit file
to consumer reporting agencies, and others who may properly receive that information.
Irregular Pay­ments. We can accept late payments or partial payments, or checks and money
orders marked “payment in full” without losing any of our rights under this Agreement.
Default. You will be in default on this Agreement if you do not make at least the Minimum
Payment on or before the Payment Due Date, you try to exceed or do exceed your Credit Limit
without our permission, become subject to bankruptcy or insolvency proceedings, attachment
or garnishment proceedings are instituted against you or your property, or we reasonably deem
ourself insecure, you provide us with false information or signature, die or fail to comply with any
provision of this Agreement. Acceptance of a payment or Late Payment after a Payment Due Date
or after you have exceeded your Credit Limit does not waive the default. Default on any Account
or other obligation that you have with us will constitute default on all Accounts with us. If you
are in default, we may, at our option, declare the entire balance due without notice or demand.
Default Charges. You must pay all costs, disbursements and reasonable attorneys’ fees incurred by
us in legal proceedings to collect or enforce the debt on this Account in the event of default by you
or in the event of a breach of any obligation by you under this Agreement; additionally, any amount
spent or costs incurred by the credit union in the event of a default will be added to the unpaid
account balance and finance charges will continue to accrue at the same rate as the account.
Delay in Enforcement. We can delay enforcing our rights under this Agreement without losing them.
Amendment and Assignment. Upon such notice to you, if any, as may be required by law,
the terms and conditions set forth in this Agreement may be amended by us at any time,
which amendment(s) shall govern any transaction occurring prior to the effective date of such
amendment(s), as to which there is any unpaid balance owing to us on the effective date of
such amendment(s), and such amendment(s) shall also govern any transaction occurring after
such effective date. We will have the right to assign and transfer our rights under this Agreement
and any amounts you owe to us; and the term “us” shall be deemed to include each and every
immediate and successive assignee.
Foreign Transactions. If you use your Card for Purchases or Cash Advances in a currency other
than U.S. dollars, the transaction amount will be converted to U.S. dollars by Visa International,
Inc. under their rules set forth from time to time. Currently, the rules specify that the currency
conversion rate is a rate selected by Visa from the range of rates available in wholesale currency
markets for the applicable central processing date, which rate may vary from the rate Visa itself
receives, or the government-mandated rate in effect for the applicable central processing date.
If a credit is subsequently given for a transaction in a currency other than U.S. dollars and the
credit has a different processing date, then the converted amount of the credit may be greater/
less than the converted amount of the original transaction. The currency conversion rate on the
day before the transaction processing date will be used and may differ from the rate in effect at
the time of the original transaction. You agree to accept the converted amount in U.S. dollars.
ATM Fees. Alaska USA does not charge a fee for any electronic funds transfer you make using
your Visa credit card. When you use an ATM not owned by Alaska USA you may be charged a fee
by the ATM operator or any network used.
Illegal Activity. Visa credit cards may not be used for any illegal activity. Display of a Visa logo
by an online merchant does not mean that transactions are lawful in all jurisdictions in which
cardholders may be located.
Severability. If any provision of this Agreement is held invalid, all valid provisions that are
severable from the invalid provision remain in effect.
Captions and Catchlines for Reference Only. Captions and catchlines are intended solely as aids
to convenient reference, and no inference as to intent with respect to this Agreement may be
drawn from them.
Law Governing. This Agreement is governed by Federal laws and the laws of Alaska to the extent
they are not preempted by Federal laws and regulations.
How Alaska USA will calculate your balance: Alaska USA uses a method called “average daily
balance (including new purchases).” See your account agreement for more details.
Billing rights: Information on your rights to dispute transactions and how to exercise those rights
is provided in your account agreement.
ScoreCard® Reward Point Program Rules
1. Visit www.scorecardrewards.com and log in to view your Reward Point earnings ratio for every
qualifying purchase dollar amount. A qualifying purchase (“Qualifying Transaction”) shall mean: (i)
a transaction that is charged to an eligible card account covered by the Program (“Account”), and
(ii) a transaction that appears on Your statement during the Program period. Points are deducted
for returns. No Points are earned for finance charges, fees, cash advances, convenience checks,
ATM withdrawals, foreign transaction currency conversion charges or insurance charges posted to
your Account. Contact Alaska USA (“Sponsor”) for full details on the Program period dates during
which you are eligible to earn Points.
2. Points can be used to order only the merchandise/travel awards (“Award(s)”) available in the
current Program. You may select Awards from any level, as long as you have a sufficient number
of Points available in your Account as of the date of your most recent earnings statement. Point
requirements assigned to any Award are subject to change from time to time without notice, and
Awards may be substituted at any time. Should an Award be discontinued, it will be replaced with
an Award of equal or greater value or, if no suitable substitute is available, you will be advised to
make an alternative selection or your Points may be returned to your Account.
3. Your merchandise Award will usually be delivered by a commercial delivery service or the U.S.
Postal Service within 4-6 weeks of processing your order. Shipments cannot be made to a post office
box. If you have an APO, U.S. eligible territory or international address, please contact ScoreCard
Award Headquarters for details regarding merchandise options and shipments before ordering.
4. Note any damages or shortages on the delivery receipt before signing to accept delivery from
the carrier. A merchandise Reward received damaged or defective may be returned to the shipper
for replacement within thirty (30) days of delivery. All parts, instructions, warranty cards and
original packaging materials must be returned with the merchandise Award.

5. Applicable manufacturers’ or providers’ warranties, if any, will be included with your Award.
Warranty claims must be directed to the manufacturer or provider, as applicable. SPONSOR, ANY
THIRD PARTY UTILIZED BY SPONSOR TO ADMINISTER THE PROGRAM (“Program Administrator”)
AND THEIR AFFILIATES, AND ANY ASSOCIATION OR ORGANIZATION OF WHICH YOUR SPONSOR
IS A MEMBER IN CONNECTION WITH THE PROGRAM (“ASSOCIATION “) MAKE NO AWARD,
PRODUCT, OR MERCHANDISE REPRESENTATIONS OR WARRANTIES, EXPRESS OR IMPLIED,
AND DISCLAIM ANY AND ALL LIABILITY AS TO THE CONDITION, QUALITY, MERCHANTABILITY
OR FITNESS FOR A PARTICULAR PURPOSE OF AWARDS, PRODUCTS, MERCHANDISE AND/OR
SERVICES PROVIDED THROUGH THIS PROGRAM. THE PROGRAM ADMINISTRATOR AND ITS
AFFILIATES WILL NOT BE LIABLE FOR ANY DEFECTS IN AWARDS OR DAMAGES RESULTING FROM
USE OF ANY AWARDS PROVIDED THROUGH THE PROGRAM.
6. Points have no cash value. Points cannot be exchanged for cash or credit; used with any other offer,
promotion or discount; combined with cash to obtain any Awards; or, earned from or transferred to any
other credit and/or debit card, account or rewards program, unless otherwise specified.
7. Your ScoreCard earnings statement will normally include the number of Points earned, subject
to adjustment as provided for in these Rules. In the event you redeem unearned Points, your
Account may be charged for the actual cash difference between the cost of the Award redeemed
and the net value of the actual Points available.
8. Your Account must be open and in good standing (i.e., not cancelled, terminated by either party
or otherwise not available for your use as a payment method) at the time your order is received
for processing. Sponsor reserves the right to suspend your participation in the Program until the
Account is in good standing.
9. Despite the Program’s best efforts to ensure accuracy, printing and website errors may
occasionally occur. The Program Administrator reserves the right to correct such errors at any time.
10. The Program may be modified, suspended or cancelled, and the redemption value of already
accumulated Points may be changed, at any time without notice and without restriction or penalty.
Changes to the Program may include, but are not limited to, modifications that affect Point
accrual and/or expire Points based on the Point term, age and expiration date of the selected
option(s). Award orders must be received on or before the Program end and/or Point expiration
date. Contact your Sponsor for details on any current promotions affecting Point accrual or
redemption options. Points may be forfeited due to Rules violations. This Program is void where
prohibited or restricted by law. You are responsible for any applicable federal, state or local taxes.
11. You agree to hold the Program Administrator and its affiliates, any Association and any
vendors or other providers associated with the Program harmless if your Sponsor fails to meet
its contractual or other obligations, resulting in Program interruption or termination prior to your
redeeming your Points or receiving your Awards. You also agree to hold the Program Administrator
and its affiliates, Sponsor and Association harmless if a Program vendor or provider files for
bankruptcy, or otherwise goes out of business after you have redeemed your Points for an Award
from the vendor or provider but before you receive or use the Award.
12. Certain restrictions may apply to travel certificates, tickets and documents. Travel and other
certificates are not exchangeable, refundable, transferrable or redeemable for cash. All travel
certificates, tickets and documents will be mailed first class U.S. Mail and will not be replaced
in the event of loss, destruction or theft. Your Award will usually be delivered within 4-6 weeks
of processing your order but is not guaranteed. You may request travel certificates, tickets and
documents to be delivered by overnight carrier and agree to pay any associated additional delivery
fees before shipment. You are responsible for any airline security fees and any surcharges or
additional fees that may be imposed by the airlines or aviation authority and you must pay them
by permissible credit and/or debit card at the time of the reservation booking. See the Program
website for specific travel Award terms and conditions.
13. Your individual Program Sponsor may offer rewards opportunities and/or impose rules that
are in addition to those stated in the Program rules. Prospective cardholders who are eligible
to participate in the Program may contact their Program Sponsor for the Program Sponsor’s
complete rules, including information on how Reward Points are earned, how Reward Points
accrue, when Reward Points expire, and variable Reward Points earnings ratios, if applicable.
Existing Program participants may access the current Program Rules at any time on the Program
website. Program rules are subject to change at any time without notice.
14. The Program Administrator shall resolve all questions of what constitutes a Qualifying
Transaction. All such resolutions or determinations by the Program Administrator are final. The
use of your Account following receipt of these Rules will indicate your agreement to these Rules.

Credit card disclosure
Interest Rates and Interest Charges
Annual Percentage
Rate (APR) for
Purchases

14.5%

APR for Balance
Transfers

14.5%

APR for Cash
Advances

14.5%

Penalty APR and
When it Applies

none

Paying Interest

You have 25 days to repay your balance for Purchases
before being charged a finance charge. We will begin
charging interest on Balance Transfers and Cash
Advances on the transaction date.

To learn more about factors to consider when applying for or using a credit card,
visit the Consumer Financial Protection Bureau at
www.consumerfinance.gov/learnmore
Fees
Annual Fees

$50 (waived for Alaska USA checking account holders)

Transaction Fees
• Cash Advance

2% of the cash advance amount ($10 maximum)

• Foreign Transaction No fee
Penalty Fees
• Late payment

Up to $35

• Returned Payment

Up to $20

How Alaska USA will calculate your balance: Alaska USA uses a method called
“average daily balance (including new purchases).” See your account agreement
for more details.
Billing rights: Information on your rights to dispute transactions and how to
exercise those rights are provided in your account agreement.

